  Office of Inspector General
         Audit Report


PHMSA’S INADEQUATE MANAGEMENT AND
 OVERSIGHT OF HAZARDOUS MATERIALS
  EMERGENCY PREPAREDNESS GRANTS
LIMITED THE PROGRAM’S EFFECTIVENESS
 Pipeline and Hazardous Materials Safety Administration

             Report Number: AV-2012-040
             Date Issued: January 12, 2012
           U.S. Department of
                                                            Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: PHMSA’s Inadequate Management and                                Date:    January 12, 2012
           Oversight of Hazardous Materials Emergency
           Preparedness Grants Limited the Program’s
           Effectiveness
           Pipeline and Hazardous Materials Safety
           Administration
           Report No. AV-2012-040

  From:    Jeffrey B. Guzzetti                                                   Reply to
                                                                                 Attn. of:   JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits

    To:    Pipeline and Hazardous Materials Safety Administrator

           From 2001 through 2010, nearly 165,000 hazardous materials incidents 1 occurred
           in the United States, resulting in more than 2,800 injuries, including several fatal
           injuries, and about $640 million in damages. The Pipeline and Hazardous
           Materials Safety Administration (PHMSA) administers the Hazardous Materials
           Emergency Preparedness (HMEP) Grant Program as a part of its national strategy
           for reducing death and injuries from hazardous materials incidents. PHMSA
           estimates that almost 2.3 million emergency responders have been provided
           training with HMEP grant funds.

           The importance of adequately trained responders is highlighted when deficiencies
           in emergency response contribute to an endangerment of public safety. For
           example, in June 2004, a rail tank car carrying chlorine was punctured during a
           freight train collision in Macdona, TX, resulting in 3 fatalities and 30 injuries. As
           part of its investigation, 2 the National Transportation Safety Board (NTSB) noted
           that the emergency response was untimely and ineffective because the responding
           agencies failed to consider alternative response and rescue tactics to access
           1
               An incident generally involves the unintentional release of a hazardous substance or discovery of an
               undeclared hazardous material.
           2
               NTSB Railroad Accident Report No. NTSB/RAR-06/03, “Collision of Union Pacific Railroad Train
               MHOTU-23 with BNSF Railway Company Train MEAP-TUL-126-D With Subsequent Derailment and
               Hazardous Materials Release; Macdona, Texas; June 28, 2004.”
                                                                                                         2


threatened residences. As a result, the responding agencies increased their
employee training to prevent similar situations in the future. 3

On March 11, 2010, the former Chairman of the House Committee on
Transportation and Infrastructure requested that we review PHMSA’s
management and oversight of the HMEP Grant Program (here within referred to as
the Program). The Chairman cited concerns with potential program
mismanagement and misuse of grant funds, which the Committee identified during
its investigation of PHMSA’s Hazardous Materials Safety Program.

Accordingly, our objectives were to evaluate the effectiveness of PHMSA’s
(1) policies, processes, and resources to execute the program; (2) outreach and
coordination with States, local governments, and tribal organizations to enhance
their approach to emergency planning and training; and (3) program oversight to
ensure Federal funds are used for eligible activities in accordance with Federal
law, regulations, and submitted grant applications.

We conducted this performance audit in accordance with generally accepted
Government auditing standards. Exhibit A details our scope and methodology, and
Exhibit B lists stakeholders visited or contacted.

RESULTS IN BRIEF
PHMSA does not have sufficient policies and processes—and until recently,
resources—to effectively execute the Program. Although the Program was
initiated in 1993, PHMSA did not develop written standard operating procedures
(SOPs) to document the steps necessary to administer the Program until 2009.
Moreover, these SOPs are incomplete, as PHMSA has not yet established
procedures to cover critical aspects of the grant administration and oversight
process, such as processing closeout reports to measure the Program’s
effectiveness in allocating grant funds. In addition, PHMSA’s current
methodology for allocating grant funds does not consider grantee needs and is
based on outdated factors, such as the number of hazardous materials facilities in
each State. This ineffective allocation method has resulted in grant funds that
could have been used to better meet Program needs. Finally, PHMSA had not
devoted enough staff to run the Program, relying on a maximum of three staff until
2010, when PHMSA began hiring additional staff for the Program. As a result of
the lack of guidance, an outdated allocation formula, and limited staff resources,
HMEP grant funds were not being fully used or optimized to ensure that

3
    Although the emergency response was not determined to have contributed to the deaths or injuries
    sustained during the accident, NTSB cited a finding that “the overall execution of the incident command
    process during the response effort was not timely, effective, or appropriate.” NTSB also noted that
    “rescue efforts on behalf of the endangered residents did not commence for more than 3 hours after the
    collision.” The investigation did not reference HMEP grants.
                                                                                                                3


emergency response teams throughout the nation are being prepared to respond to
hazardous materials incidents.

PHMSA does not proactively or effectively reach out to or coordinate with
grantees 4 to enhance their approaches to emergency planning and training. For
example, PHMSA uses the Internet to provide grantees information on the
Program; however, the Program’s Web site is difficult to use and does not provide
needed or current information to grantees, such as eligible costs or application
procedures. PHMSA’s outreach to tribal organizations in particular is limited, with
an average of only 10 of the hundreds of tribes participating in the Program from
fiscal years (FY) 2007 through 2010. Until recently, PHMSA did not conduct any
site visits to grantees 5 since the Program’s inception. PHMSA also has yet to
follow up with grantees to determine why they did not use any or only a portion of
their allocated funds. From FYs 2007 through 2010, an average of 76 percent of
States, territories, and tribal organizations used none or only a portion of their
allotted grant funds, with unused funds totaling almost $13 million. As a result of
such limited outreach and coordination, PHMSA cannot be assured that Program
funds are being used effectively, or that the Agency is meeting its mission
requirement to provide communities with trained responders to deal with
hazardous materials incidents.

PHMSA’s oversight is lacking and has resulted in misused grant funds due to
improper payments and erroneously advanced funds. PHMSA allowed grantees to
receive funds without adequate supporting documentation and advanced funds to
grantees against regulations. We identified more than $1 million in improperly
distributed funds that were not used or needed. In addition, PHMSA paid another
Government agency more than $300,000 in 2007 for services that it has not yet
received in full because it did not monitor its interagency agreements. Further,
because PHMSA does not require grantees to submit supporting documentation as
part of the reimbursement process, the Agency cannot ensure that it is reimbursing
grantees for only eligible expenditures. PHMSA also relies on grantees to oversee
sub-recipients, but has not effectively communicated eligibility criteria about the
proper use of funds. This resulted in the reimbursement of Federal funds for
unallowable expenses, such as staff salaries for attending meetings.

We made 10 recommendations to PHMSA to improve its management and
oversight of the Program. In its response, PHMSA concurred with eight
recommendations, partially concurred with one recommendation, and did not
concur with one recommendation. We are requesting that PHMSA reconsider its
position regarding grant reallocation.


4
    Grantees are used throughout this report when referring to States, territories, and tribal organizations.
5
    Beginning in February 2011, PHMSA conducted site visits to four States.
                                                                                                         4


BACKGROUND
The HMEP Grant Program was established in 1990 by the Hazardous Materials
Transportation Uniform Safety Act. In 1993, PHMSA began issuing grants to help
public sector employees (e.g., firefighters, law enforcement personnel, and
emergency personnel) fund emergency response planning and training activities.

The 2005 Hazardous Materials Transportation Safety and Security Reauthorization
Act doubled the Program funding, from an average of $13 million per year for
8 years (2000 to 2007) to over $26 million in 2008. The Program is funded by
annual registration fees PHMSA collects from certain transporters of hazardous
materials.

The HMEP fund consists of:

      • HMEP Planning and Training Grants ($21.8 million): Planning grants
        are awarded to develop and implement emergency plans, conduct
        commodity flow studies, 6 and determine the need for regional hazardous
        materials response. Training grants are awarded to train local public-sector
        employees to respond to accidents and incidents that involve the
        transportation of hazardous materials.

      • Hazardous Materials Instructor Training (HMIT) Grants ($4 million):
        HMIT grants are awarded to train employees of non-profit organizations,
        who then train other hazardous materials employees.

      • Supplemental Public Sector Training (SPST) Grants ($1 million): SPST
        grants are awarded to the International Association of Firefighters to fund
        “train the trainer” instruction for hazardous materials response educators.

      • Miscellaneous Program Expenses ($975,000): These expenses are used to
        pay for the efforts of monitoring, providing technical assistance, and
        developing a training curriculum for the public sector.

In March 2009, PHMSA conducted a self-initiated internal review of the Program
and developed an action plan to address deficiencies. A subsequent review by its
consulting firm 7 in December 2010 prompted PHMSA to develop a
comprehensive action plan, included as Exhibit C.




6
    A commodity flow study identifies the chemicals transported, either specifically or by hazard class, as
    well as the routes on which they are transported.
7
    PHMSA hired a consulting firm to do a top to bottom review of the HMEP Grant Program.
                                                                                                   5


PHMSA LACKS EFFECTIVE PROGRAM POLICIES, PROCESSES,
AND RESOURCES
PHMSA does not have adequate policies, processes, or resources in place to
effectively execute the Program. PHMSA lacks complete SOPs, uses an
ineffective allocation method for distributing grant funds, and, until recently, had
not dedicated sufficient resources, as only three staff were assigned to administer
the program. While PHMSA has taken some steps to address these deficiencies,
the Agency has not yet ensured that the Program is executed efficiently and that
grant funds are put to their best use so that States, territories, and tribal
organizations can plan for effectively responding to hazardous materials incidents.

PHMSA’s HMEP Policies Are Incomplete
PHMSA does not have sufficient policies in place to ensure the Program is
effectively implemented. PHMSA did not issue its first written SOPs to document
its processes and procedures until 16 years after the Program was enacted.
However, the documented procedures were incomplete, as they did not incorporate
the entire grant process. This is a particular shortcoming because four of the seven
HMEP grant staff were recently hired in 2010 and did not have sufficient written
guidance on hand to effectively perform their duties.

In March 2011, PHMSA issued another set of SOPs; however, the documents still
lack procedures on the preparation, processing, and review of quarterly reports and
closeout reports, which are essential elements of the grant administration and
oversight process. It is important for PHMSA’s grant specialists to know how to
properly use these reports to ensure grantees receive reimbursements in a timely
manner, and to properly close out grant accounts in a timely fashion to measure
the Program’s effectiveness in allocating grant funds.

PHMSA’s Process for Allocating Program Funds Is Outdated,
Inflexible, and Ineffective
Currently, PHMSA allocates grant funds based on a formula developed in the
early 1990s. The formula contains several factors, 8 such as a State’s total number
of chemical facilities and the total population. However, according to PHMSA,
only one factor—population—has ever been updated with current data since the
formula’s creation. PHMSA continues to allocate grant funds based solely on this
outdated formula, and does not consider other risk factors, such as the actual needs
of the grantees which, by law, 9 PHMSA is required to consider.

8
    PHMSA considered the following factors when the original formula was developed: total population,
    highway miles, hazardous material miles driven, and total chemical facilities.
9
    49 USC 5116(b)(4) requires PHMSA to consider the grantee needs, including the types and amount of
    hazardous materials transported through a State or tribal land.
                                                                                 6


By relying only on its current formula, PHMSA is missing an opportunity to use
other more effective options, such as using commodity flow studies as a tool to
allocate future grant funds. These studies are an eligible activity under the
planning grants and provide important information about hazardous materials
transported in an area. The data collected from these studies could be used by
PHMSA to better match funds to existing needs within communities.

In addition, because PHMSA is allocating its funds with a flawed formula, it
cannot ensure that grant funds are being put to their best use. During FY 2007
through 2010, an average of 76 percent of States, territories, and tribes used none
or only a portion of their allotted grant funds, with unused funds totaling almost
$13 million (see exhibit D for further details on our unused HMEP Program funds
analysis). Unused program funds are de-obligated, returned to a HMEP grant
Treasury account, and distributed the following year using the same flawed
formula. PHMSA does not reallocate unused funds to grantees who demonstrate a
need for additional funding. For example, the Director of the State of California’s
Specialized Training Institute said he could have used more funding to meet
annual training demands. The availability of unused funds to meet annual training
needs is of particular importance because this State had the highest number of
recorded hazardous materials incidents in the past 10 years.

PHMSA Did Not Dedicate Sufficient Staff to the Program
Until recently, PHMSA did not provide the resources necessary for adequately
administering the Program. From 1993 through 2009, PHMSA had only three staff
administering the Program. Among other tasks, the staff were responsible for
oversight and administration of grants for more than 70 grantees, which included
ensuring grant applications were accurate and complete, and processing
reimbursements.

Grantees we spoke with raised serious concerns about PHMSA’s management of
the Program. For example, grantees expressed concern with PHMSA’s lack of
responsiveness. In one instance, the grantee began requesting personnel costs in
advance so it could receive funding in a timely manner to cover its payroll.
Furthermore, that same grantee tried to return unused funds, but PHMSA did not
respond for weeks to its email requests about where to send the funds. Another
grantee stated that PHMSA was very slow to respond to queries about the
Program, and that PHMSA took nearly 2 months to process reimbursement
requests.

In 2010, PHMSA began hiring additional staff for the program. Since then,
grantees have stated that the Program’s responsiveness has improved. However, to
further enhance administration of the Program, staff still need additional training
                                                                                  7


on Federal grants management, such as how to review grantees’ application
budgets and financial reports.

PHMSA’S OUTREACH AND COORDINATION EFFORTS WITH
GRANTEES ARE NOT SUFFICIENT
PHMSA’s outreach and coordination with grantees is limited, which hinders its
ability to inform grantees of the funding available to enhance their emergency
preparedness planning and training. In particular, PHMSA has not effectively
encouraged tribal organizations to participate in the Program, or provided an
effective medium through its Web site for grantees to obtain current and essential
information about the Program and use of HMEP grant funds. This has resulted in
grantees receiving incomplete or outdated information about the Program and, in
some cases, precluded them from participating altogether. In addition, PHMSA’s
lack of outreach hinders the Agency from ensuring that Program grant funds are
being put to their best use because PHMSA was not aware of the grantees’ actual
needs.

PHMSA’s Outreach to Grantees Is Limited
PHMSA did not proactively or regularly reach out to grantees to inform them
about grant funding available for emergency preparedness planning and training.
For example, although there are more than 500 federally recognized tribal
organizations, our analysis found that on average, from FYs 2007 through 2010,
only 10 participated in the Program. PHMSA stated that it was not sure how many
tribes needed HMEP grant funding and that outreach to tribes has historically been
difficult because of the voluminous number of tribes and limited staff. In addition,
PHMSA stated that not all tribes have their own sovereign land, nor do the tribes
have significant hazardous materials transportation risk on or adjacent to the
reservation. Also, some tribes rely on neighboring counties to provide emergency
response services. PHMSA plans to target a few tribes each year in an attempt to
increase their participation.

One important outreach tool PHMSA has not taken full advantage of is the
Internet. Web sites are especially effective outreach resources for programs with
limited staff resources, such as the HMEP program. However, PHMSA has not
effectively used its Web site to provide current and relevant Program information
to grantees. For instance, the Web site does not contain basic program guidance
such as the list of the Program’s eligible and ineligible expenses or a copy of the
HMEP application kit, which provides grantees guidance in the grant application
process.

PHMSA’s outreach through industry conferences has also been limited. PHMSA
has never attended or hosted HMEP or HMIT-specific conferences or training.
                                                                                                       8


While PHMSA officials did participate in the biannual National Association of
SARA Title III Program Officials Conference, 10 the conference did not focus on
emergency planning and training. Moreover, PHMSA was only allotted 2 hours to
present, which was not enough time to cover pertinent issues associated with the
HMEP program. Since January 2011, however, PHMSA has increased its
representation and attended other forums such as the Emery Associates Midwest
Hazardous Materials Planning and Response Conference and the International
Association of Fire Chiefs Hazardous Materials Response Teams Conference in an
attempt to increase outreach.

PHMSA has also recently increased the effectiveness of its outreach strategy by
administering Webinars 11 designed to provide real-time information sharing and
training to grantees. We received positive feedback from grantees on PHMSA’s
Webinars; however, one of four HMIT grantees reported that the Webinars
focused more on processes for HMEP planning and training grants and very little
on HMIT grants and so they were not as complete or as helpful as they could have
been.

PHMSA Did Not Sufficiently Coordinate With Grantees
Until recently, PHMSA did not adequately coordinate with or conduct any site
visits to grantees that received funds since the inception of the Program. PHMSA
also did not contact or follow up with grantees to determine why they had not used
any or only a portion of their total allocated funds for planning and training. For
the period from FY 2007 through 2010, an average of 76 percent of States,
territories, and tribes used none or only a portion of their allotted grant funds for a
total of almost $13 million in unused funds.

For example, a grantee stated they were not able to use their planning and training
funds because of natural disasters that required response by State personnel for an
extended period of time, resulting in the cancellation of HMEP-funded activities.
Because PHMSA did not follow up with these grantees, it missed an opportunity
to put those funds to better use by providing the funds to grantees that needed
additional grant funding to conduct HMEP planning and training activities.

Periodic site visits to grantees are important to provide guidance and ensure
grantees are using the grants as the Program intended. Beginning in February

10
   The Superfund Amendments and Reauthorization Act of 1986 (SARA) addresses concerns about
   emergency preparedness for hazardous chemicals. It established requirements for Federal, Tribal/State,
   and local governments, and industry, regarding emergency planning and “community-right-to-know”
   reporting on hazardous and toxic chemicals. Also known as the Emergency Planning and Community
   Right to Know Act of 1986, 42, USC 11001, et seq.
11
   Webinars are live interactive forums that PHMSA periodically holds with the grantees and to discuss
   topics such as program requirements examples of eligible and ineligible activities requests for
   reimbursements, and funding allocation.
                                                                                                         9


2011, PHMSA started conducting its first site visits to Nebraska, Oklahoma,
Pennsylvania, and Texas. PHMSA also plans to continue site visits in FYs 2011
and 2012 to review record retention, discuss the Program, and provide assistance
to grantees where needed. PHMSA plans to use information gathered from these
site visits to improve the general management of the program, train program staff,
and better understand grantee operations.

PHMSA’S OVERSIGHT OF PROGRAM EXPENDITURES IS
INSUFFICIENT TO ENSURE PROPER USE OF FUNDS
Since the Program’s inception, PHMSA has conducted little, if any, oversight of
Program expenditures, resulting in misused funds. We identified more than
$1 million in improperly disseminated grant funds because PHMSA advanced
funds to grantees in excess of what regulations allow. PHMSA also paid more than
$300,000 for services it did not receive in full because it did not effectively
oversee its interagency agreements. Furthermore, PHMSA did not review grantee
expenditures, which resulted in reimbursement for ineligible costs. As a result,
grant funds have been misused and grantees have not received the Program’s full
benefits to assist in their emergency preparedness activities.

PHMSA Distributed Funds to Grantees Contrary to Regulations
PHMSA did not fully comply with two key Federal regulations in the distribution
of Program funds to grantees, which resulted in misused Program funds. We
identified and examined a total of $1,015,974 that 17 grantees returned to PHMSA
from FY 2008 to FY 2010. The returned funds consisted of 29 payments ranging
from $53 to $473,000.

We found that 27 of these 29 payments, or $1,000,903, were improper according
to OMB Circular A-123 requirements regarding improper payments. 12 This was
mainly due to PHMSA authorizing payments for goods or services before the
services were actually received. (See exhibit E for further details of our improper
payments analysis).

Many of the advanced payments also did not comply with PHMSA’s own
regulation. PHMSA’s grant program is primarily designed to operate on a
reimbursable basis. Despite this, we found 19 of the 29 payments were returned
because PHMSA advanced funds to grantees who subsequently did not use all of
the funds. (See exhibit F for further details of our advanced funds to grantees


12
     The Office of Management and Budget (OMB) Circular A-123 defines improper payments as any
     payment that was made to an ineligible recipient or for an ineligible service, insufficient or lack of
     documentation, duplicate payments, payments for services or goods not received, or payments that are
     for the incorrect amount.
                                                                                                          10


analysis). Although PHMSA’s regulation 13 permits an advance in grant funds up
to $25,000 if certain criteria are met, PHMSA did not comply with the
requirements for granting advances. At least 10 of the 19 advanced payments were
above the $25,000 allowable threshold, based on the amount of the returned funds.
In total, we identified almost $993,000 in unused grant funds that could have been
put to better use by going to other grantees for emergency preparedness planning
or training activities. We also obtained evidence that PHMSA has been advancing
funds for longer than our period of review. For example, one grantee who returned
approximately $280,000 (55 percent of its allotted funds) in FYs 2008 and 2009
stated that PHMSA had been approving its advances since 2003.

We were able to identify these erroneously advanced funds and improper
payments because grantees voluntarily returned their excess funds to PHMSA.
PHMSA’s oversight process did not catch these errors or any other related errors
where funds may not have been returned. Consequently, the total amount of grant
funds that could have been used to strengthen other emergency preparedness
planning and training activities may never be fully known.

PHMSA Did Not Receive All Deliverables Paid for Under Its
Interagency Agreements
PHMSA paid for services it did not receive because it did not effectively oversee
its interagency agreements. In August 2007 PHMSA entered into two interagency
agreements with the Federal Emergency Management Agency (FEMA) containing
10 deliverables for emergency preparedness curriculum development and technical
assistance to grantees. PHMSA paid a total of $308,817 in advance for the
agreements, but as of July 2011, only 4 of the 10 deliverables were completed.

PHMSA’s former Program manager, responsible for monitoring the interagency
agreements, said that he did not receive training and therefore did not fully
understand his oversight responsibilities. In addition, he said there was not enough
staff to ensure the interagency agreements were properly monitored, no
accountability for mismanagement, and frequent turnover of PHMSA management
(three directors from 2006–2008).




13
     49 Code of Federal Regulations §110.70(c) “Financial Administration” requires compliance with the
     following to be considered for advanced funds: a letter describing the extenuating circumstances;
     maximum $25,000 limit; obligation within 3 months of receipt; advances plus interest will be deducted
     from the initial reimbursement; and no further advances will be granted until the advance is covered by a
     request for reimbursement.
                                                                                                      11


Furthermore, according to Title 31 USC Section 1535, payments for interagency
agreements may be made either in advance of or after the goods or services
ordered have been provided. 14 However, under PHMSA’s supplemental policy,15
advanced payment for all interagency agreements is mandatory. As demonstrated
with the 2007 interagency agreements, requiring advanced payments for
interagency agreements without sufficient management and oversight puts
PHMSA at greater risk of not getting the goods and services it paid for.

In contrast, for PHMSA’s next interagency agreement with FEMA, initiated in
FY 2009, PHMSA appointed a contracting officer technical representative to
monitor the deliverables and ensure all of the technical requirements of the
agreement were met. As of May 2011, all the 2009 deliverables were provided.
However, the FY 2007 deliverables remain unresolved.

PHMSA Reimbursed Grantees for Ineligible Activities
PHMSA did not conduct reviews of grantee expenditures to ensure that grant
funds were used for eligible costs, and, as a result, reimbursed grantees for
ineligible costs. PHMSA has never required grantees to submit supporting
documentation as part of the reimbursement process. Consequently, PHMSA has
no documentation to verify that grantees actually incurred the costs they claimed.

For example, PHMSA reimbursed one grantee for ineligible expenditures claimed
by the grantees sub-recipient. This occurred because PHMSA relied on its grantees
to oversee sub-recipient requests and use of Program funds. However, this is
problematic because PHMSA had not provided most grantees with adequate
guidance to determine whether expenditures were allowed for reimbursement,
especially in regards to planning funds. As a result, PHMSA sub-recipients
received program grant funds as reimbursement for unallowable expenses, such as
refreshments, t-shirts, and staff salaries while at meetings.

In December 2010, PHMSA developed a list of eligible and ineligible activities,
but the Agency did not effectively disseminate the list. Grantees we spoke with
were not aware of the list, even though PHMSA claimed the Agency distributed it
to all grantees. As previously mentioned, in 2011, PHMSA and its consulting firm
started conducting site visits and reviewing grantee expenditures to gain a better
understanding of issues with the grant process. In its August 2011 report,




14
   Section 1535 also specifies that proper adjustments of amounts paid in advance shall be made as agreed
   to by the heads of agencies on the basis of the actual cost of goods or services provided.
15
   Order No. 4200.1 “Interagency and Intra-Agency Agreements; Acquisition from Other Government
   Agencies, or Other DOT Operating Administrations,” dated October 29, 2007, states advance payment is
   mandatory for all interagency agreements.
                                                                                                12


PHMSA’s consulting firm also found grantees were reimbursed for similar
ineligible activities. 16 PHMSA plans to continue the site visits in 2011 and 2012.

CONCLUSION
PHMSA’s HMEP Grant Program is a vital component in the Department’s
national strategy for reducing death and injuries from hazardous material
incidents. However, PHMSA’s lack of program management and oversight of
program expenditures calls into question the effectiveness of the Program. While
PHMSA’s recent action plan and senior management’s attention show promise, it
will take time, resources, and sustained commitment to address these longstanding
issues. To ensure the long-term success of its current efforts, PHMSA must
continue to refine its policies, processes, and resources to effectively execute the
program, work with grantees to enhance their emergency preparedness
capabilities, and set targeted oversight priorities to ensure program expenditures
are not wasted or misused.

RECOMMENDATIONS
We recommend that PHMSA:

1. Complete the implementation of all HMEP action plan items to improve the
   management and oversight of the HMEP Grant Program.

2. Finalize and fully implement formal SOPs and policies for grant application,
   evaluation, authorization, reporting, Agency coordination, and oversight.

3. Provide the necessary training to Program staff to enhance their Federal grant
   management capabilities.

4. Develop and implement an updated and flexible process to allocate grant
   funds, taking into account applicable risk factors, commodity flow studies,
   and grantee needs.

5. Augment outreach and coordination efforts to inform grantees about available
   emergency preparedness planning and training grants, through its Web site,
   Webinars, and site visits.

6. Adhere to the grant advancement requirements in 49 CFR 110.70.

7. Rescind the provision in PHMSA’s Order No. 4200.1 “Interagency and Intra-
   Agency Agreements; Acquisition from Other Government Agencies, or Other

16
     LMI, “The Hazardous Material Emergency Preparedness Program: Recipient Review and Assessment,”
     August 2011.
                                                                               13


    DOT Operating Administrations” that requires advanced payment for all
    interagency agreements.

8. For the FY 2007 interagency agreements, request a reconciliation of amounts
   paid by PHMSA and actual goods and services provided by FEMA. Seek a
   refund as appropriate.

9. Develop and implement a process to monitor interagency agreements to
   ensure the receipt of all supplies and services as agreed upon.

10. Develop and implement a process to regularly review grantee expenditures
    before approving reimbursement requests and distribute the most current
    eligible and ineligible list to grantees.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We discussed the results of our review with officials from PHMSA’s Office of
Hazardous Materials Safety on July 28, 2011, and provided the Agency our draft
report on November 3, 2011. We received PHMSA’s formal response on
December 20, 2011, and have included it as an appendix to this report. In its
response, PHMSA concurred with eight recommendations but partially concurred
with recommendation 4 and did not concur with recommendation 7.

For recommendation 4, PHMSA’s response and planned actions only partially
meet the intent of our recommendation. Specifically, PHMSA stated that the
Agency would evaluate the potential to develop and implement an updated grant
fund allocation model but that it would be impractical to reallocate unused grant
funds during the grant year. We disagree. While some additional efforts would be
required, improved monitoring of grantee spending could prevent large sums of
unused funds from being returned at year end and make funds available to other
high-performing grantees during the grant year. For example, we found that
PHMSA allocates funds annually to grantees who have not participated in the
Program for years and to grantees who consistently return significant amounts of
unused funds, which are then de-obligated and returned to the HMEP grant
Treasury account for use in subsequent years. Therefore, we request that the
Agency reconsider its position in response to recommendation 4.

For recommendation 7, PHMSA stated that its Order is aligned with the
Department’s policy that advanced payment is mandatory for all interagency
agreements unless the enabling legislation does not authorize it. The law PHMSA
cited in its response, Title 31 USC Section 1535, provides agencies with an option
to make payments for interagency agreements either in advance of, or after the
goods or services ordered have been provided. We consider the flexibility of
                                                                               14


Section 1535 a better business practice than mandatory advanced payments;
however, in implementing this law, the Department elected to make advanced
payments mandatory. Therefore, we consider this recommendation resolved and
closed.

Finally, PHMSA requested that we remove the discussion regarding the Macdona,
TX, rail accident from this report because it seemed to implicate the HMEP Grants
Program. Our intent was not to imply a direct link between the Program and the
emergency response to the accident but rather to highlight the importance of
training to ensure an effective emergency response following a hazardous
materials spill. We revised our report to clarify this point. However, while
PHMSA correctly stated that the NTSB did not cite the Program as a contributing
factor in the accident, we note that the accident report cited a finding that “the
overall execution of the incident command process during the response effort was
not timely, effective, or appropriate.”

ACTIONS REQUIRED
PHMSA’s planned actions for recommendations 1, 2, 3, 5, 6, 8, and 10 are
responsive, and we consider these recommendations addressed but open pending
completion of the planned actions. We are closing recommendations 7 and 9 since
reasonable actions have been taken to address them. For recommendation 4, we
are asking the Agency to reconsider its position. In accordance with Department of
Transportation Order 8000.1C, we request that PHMSA provide us this additional
information within 30 days.

We appreciate the courtesies and cooperation of PHMSA during this audit. If you
have any questions concerning this report, please contact me at (202) 366-0500 or
Scott Macey, Program Director, at (415) 744-3090.

                                        #

CC: Gordon Delcambre PHG-4
    Martin Gertel M-1
                                                                                  15


EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit from October 2010 through October 2011 in
accordance with generally accepted Government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient
appropriate evidence to provide a reasonable basis for our findings and
conclusions. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.

Based on a request from the Chairman of the House Committee on Transportation
and Infrastructure, our objectives for this audit were to evaluate the effectiveness
of PHMSA’s (1) policies, processes, and resources to execute the HMEP program;
(2) outreach and coordination to enhance States, local governments, and tribal
organizations approach to emergency training and planning; and (3) program
oversight to ensure Federal funds are used for eligible activities in accordance with
Federal law, regulations and submitted grant applications.

To achieve our audit objective, we reviewed the requirements of pertinent laws
such as the Hazardous Materials Transportation Uniform Safety Act of 1990 that
established the HMEP grant program; 49 CFR 110 regarding “Hazardous
Materials Public Sector Training and Planning Grants,” which sets forth
procedures for reimbursable grants dealing with hazardous materials emergencies;
and OMB Circular A-123 guidance on improper payments. We reviewed
PHMSA’s guidance regarding the grant program such as its standard operating
procedures and job aids for the HMEP grant specialists dated September 2009, and
revised in August 2010; and its original eligible and ineligible grant expense list,
which was not dated, but revised in December 2010.

We interviewed PHMSA HMEP Headquarters officials, including the Executive
Director; Grant Manager; contractors such as PHMSA’s consultant, LMI; and
grantees. We received the universe of payments to grantees from the Department’s
Delphi Accounting System. A full list of grantees visited or contacted during this
audit—which were based on their geographic location, grantee type (State,
territory, and tribe), and history of returning funds to PHMSA—can be found in
Exhibit B. Specifically, we visited and contacted 26 of 69 grantees to review their
supporting documentation for grant draw downs and discuss PHMSA’s outreach
and coordination for their emergency preparedness planning and training efforts.
Furthermore, we selected and contacted 10 of 18 grantees based on grantee type
and their history of not drawing down on grant funds allocated to them.

For the above grantees, we reviewed the program’s grant activity and related
documentation at PHMSA Headquarters and from grantees. Specifically, we
analyzed budgetary data from FYs 2006 through 2009; expenditure reports from
FYs 2007 through 2010; applicable Standard Form 270 “Request for Advance or

Exhibit A. Scope and Methodology
                                                                      16


Reimbursement;” and the 2007 and 2009 interagency agreements PHMSA had
with FEMA for emergency preparedness curriculum development and technical
assistance to grantees.




Exhibit A. Scope and Methodology
                                                                        17


EXHIBIT B. STAKEHOLDERS VISITED OR CONTACTED
DEPARTMENT OF TRANSPORTATION
Federal Aviation Administration, Oklahoma City, OK

PHMSA
Office of Hazardous Materials Safety, Washington DC

STATES
Alabama Emergency Management Agency
Arkansas Department of Emergency Management Agency
California Emergency Management Agency
District of Columbia Emergency Management Agency
Florida Division of Emergency Management
Illinois Emergency Management Agency
Indiana Department of Homeland Security
Iowa Homeland Security and Emergency Management Agency
Kansas Division of Emergency Management
Kentucky Department of Emergency Management
Maryland Emergency Management Agency
Massachusetts Emergency Management Agency
Nebraska Emergency Management Agency
Nevada State Emergency Response Commission
New Mexico Department of Homeland Security
New York Emergency Management Office
Ohio Department of Public Safety, Emergency Management Agency
Texas Department of Public Safety, Division of Emergency Management
Utah Department of Public Safety, Office of the State Fire Marshall
Vermont Department of Public Safety
Virginia Department of Emergency Management
Washington Emergency Management Division
Wisconsin Department of Military Affairs

HMIT GRANTEES
International Association of Fire Fighters
International Association of Machinists Corporation for Re-Employment
and Safety Training
International Brotherhood of Teamsters
National Labor College

TRIBAL ORGANIZATIONS
Ely Shoshone
Fallon Paiute – Shoshone

Exhibit B. Stakeholders Visited or Contacted
                                               18


Lac Du Flambeau Band
Poarch Band of Creek Indians
Pyramid Lake Paiute
Saint Regis Mohawk

TERRITORIES
Guam
Northern Mariana
Puerto Rico




Exhibit B. Stakeholders Visited or Contacted
                                                                                                                                                      19


    EXHIBIT C. PHMSA’S HMEP GRANT PROGRAM ACTION PLAN, FY 2011
#     Description of Finding                Action                             Tasks (Action Items)              Challenge(s)                  Status
1     Lack of clear internal and external   •Develop Clear and                 •Create a list of                 • Must gain buy-in from       •Complete
      guidance on allowable uses of         comprehensive guidance for         •Eligible/Ineligible Expenses     Grant Program staff
      grant funds (courses, equipment)      expenditures                       for internal and external          • Must gain concurrence
                                                                               reference                         from PHC leadership
2     Grantee administrative                •Develop Clear Grantee             • Create Eligible/Ineligible      •Changing grantee culture     • Complete
      requirements not clear/not well       (external) guidance documents      Lists                             of little program oversight   • Complete
      articulated                           and increase outreach efforts      • Create Regulation Quick         to well educated and          • Complete
                                            to better educate grantees         Reference Guide                   highly compliant grantee
                                                                               • Improve Guidance
                                                                               Document
3     Inconsistencies in completeness of    •Develop Clear and                 • Compile existing SOPs and                                     • In Process
      grantee files                         comprehensive SOPs for             develop new SOPs, as
                                            (internal) grant administration,   needed to fully document the
                                            to include file preparation and    entire grant management life-
                                            maintenance                        cycle
4     Lack of adequate oversight of         • Develop clear program            • Develop (external)              • Getting staff adequately    • In Process
      grantee                               performance measures               performance measures that         trained on all grant
      performance                            • Develop Clear and               act as true indicators of risky   management processes
                                            comprehensive SOPs for             grantees and inefficient uses     • Changing grantee
                                            (internal) grant administration,   of grant funds                    expectation of limited
                                            to include measuring               • Develop SOP for Site Visit      program oversight to          • In Process
                                            performance and site visit         protocols that ensure best        active partnership
                                            protocols                          use of grant staff time and       between grantee and
                                                                               other limited program             grantor
                                                                               resources
                                                                               • Perform Site Visits                                           • Complete
                                                                               • Enforce Quarterly Reporting                                   • Complete
                                                                               Requirement to stave off on-
                                                                               going grantee problems (will
                                                                               be reiterated in the Guidance
                                                                               Document)
5     Vague proposals included in           •Enhance application to require    •Update/Improve Guidance          • Requires time-              •Complete*
      application                           more specific information in       Document to include:              consuming OMB Approval
                                            proposed planning and training     • Clear grant administrative      • Grants.gov and
                                            activities                         requirements                      GrantSolutions may
                                                                               • Proposed Activity Template      preclude the use of


    Exhibit C. PHMSA’s HMEP Program Action Plan
                                                                                                                                                   20


#     Description of Finding              Action                           Tasks (Action Items)             Challenge(s)                  Status
                                                                           • Quarterly/Final Report         PHMSA-specific forms
                                                                           Template
6     Grantees utilize multiple funding   •Develop Clear Grantee           • Develop outreach plan to       •Changing grantee culture     • Complete
      sources (DHS/FEMA, EPA)             (external) guidance documents    include participation in         of little program oversight   • Complete
      without clear separation            and increase outreach efforts    webinars, industry events,       to well educated and
                                          to better educate grantees on    and the development of           highly compliant grantee
                                          the proper use of HMEP Grant     promotional materials and        population
                                          funds AND Enhance reporting      other informational materials
                                          requirements to gain only        • Improve Guidance
                                          HMEP related data                Document
                                                                           • Develop Quarterly/Final                                      • In Process
                                                                           Report Template designed to
                                                                           exclude non-HMEP activity
7     Numbers Trained (as noted on        •Enhance final report template   • Improve Guidance               • Requires timely OMB         • In Process
      Report to Congress) are unclear     require more specific            Document to prepare grantee      Approval
                                          information on actual planning   for accurate reporting           • Grants.gov and
                                          and training activities          • Develop Quarterly/Final        GrantSolutions may
                                          performed with HMEP Grant        Report Template to exclude       preclude the use of           • In Process
                                          funds                            non-HMEP activity                PHMSA-specific reports
8     Failure to manage grants in         •Develop Clear and               • Compile existing SOPs and                                    • In Process
      accordance with “federal norms”:    comprehensive                    develop new SOPs, as
      1) App Review                       SOPs for (internal) grant        needed to fully document the
      2) Awarding                         administration, to include the   entire grant management life-
      3) Admin/Oversight                  entire grant lifecycle           cycle
      4) Close-out                                                         • Create Regulation Quick                                      • Complete
      5) Compliance                                                        Reference Guide to afford
                                                                           easy access to all relevant
                                                                           regulatory documents
                                                                           • Develop internal training                                    • Complete
                                                                           plan to ensure all grant staff
                                                                           are prepared to oversee the
                                                                           administration of HMEP
                                                                           grants
                                                                           • Perform Site Visits                                          • Complete**
                                                                           • Develop performance                                          • In Process
                                                                           measures that act a true
                                                                           indicators of risky grantees
                                                                           and inefficient uses of grant
                                                                           funds

    Exhibit C. PHMSA’s HMEP Program Action Plan
                                                                                                                                         21


#     Description of Finding            Action                          Tasks (Action Items)             Challenge(s)              Status
                                                                        • Establish Compliance                                     • Complete
                                                                        Protocol, via the Terms &
                                                                        Conditions, that enables the
                                                                        program to impose
                                                                        consequences on
                                                                        noncompliant grantees
9     Regulations do not align with     •Update regulations to ensure   • Update HMEP, HMIT and          •Time consuming process   • To Begin
      assurance documents or grantee    relevance and to accurately     SPSTG        regulations,   as   involving internal OHMS   Feb ‘12
      submissions/practices             align with program intent,      necessary                        interested parties and
                                        practices                                                        OMB

    DELIVERABLES***
    Finding(s)   Item/Activity                                           Due Date                   Status
    1,2          Eligible/Ineligible List                                December 31st              COMPLETE
    2,8          Regulation Quick Reference Guide                        March 15th                 COMPLETE
    8            Internal Training Plan                                  March 28th                 COMPLETE
    6            Outreach Plan                                           March 28th                 COMPLETE
    2,5,6,7      Guidance Document                                       April 15th                 COMPLETE
    7            Quarterly Reporting Requirement (in ‘11 Award T&Cs)     April 15th                 COMPLETE
    5            Proposed Activity Template                              April 15th                 COMPLETE
    4,8          Perform Site Visits (with LMI)                          April 15th                 COMPLETE
    3,4,8        Standard Operating Procedures (full grant cycle)        April 29th                 COMPLETE
    8            Compliance Protocol                                     June 3rd                   COMPLETE
    5,6,7,       Quarterly/Final Report Template                         December 16th              IN-PROCESS
    4, 8         Performance Measures                                    December 16th              IN-PROCESS
    9            Regulations                                             May 2012                   TO BEGIN FEB ‘12

      * A sample application was provided to grantees to serve as a reference when developing their respective 2011-2012 HMEP Grant
         Applications. The revised Grant Application has an anticipated release date of April 2013.
     ** Initial plan included four Grantee Site Visits (Oklahoma, Texas, Nebraska, and Pennsylvania). All were completed in 2011. Site
         Visits will be incorporated as a regular component of the program’s outreach efforts.
    *** Note: Deliverables will be prepared by Grant Program Personnel, by listed due date, in DRAFT form for additional review and
         concurrency by the Grants Advisory Panel.

    SOURCE: PHMSA

    Exhibit C. PHMSA’s HMEP Program Action Plan
                                                                                       22



EXHIBIT D. ANALYSIS OF UNUSED HMEP PROGRAM FUNDS
We analyzed PHMSA HMEP Grant Program expenditure data for FYs 2007
through 2010 and found that an average of 76 percent (see Table D-1) of States,
territories, and tribes returned all or a portion of their allotted grant funds. The
percentage of grantees who did not use any of their allotted grant funds was
18 percent in FY 2007, 13 percent in FY 2008, 11 percent in FY 2009, and
3 percent in FY 2010.

Table D-1. Percentage of Grantee Returning All or a Portion of Funds
          Grantee        2007         2008          2009         2010        Totals
        States                 63%         75%          80%            74%       73%
        Territories            80%         80%          67%           100%       82%
        Tribes               100%          85%          89%            86%       90%
       Source: OIG analysis of HMEP grant program expenditure reports

For the same period, grantees did not use approximately $13 million in program
funds (see Table D-2), which represents program funds that could have been put to
better use.

                  Table D-2. Unused HMEP Program Funds
          Grantee       2007          2008         2009         2010         Totals
        States        $1,883,981 $1,752,022 $3,848,968 $3,778,820 $11,263,791
        Territories      247,563      266,905      224,712         45,905 785,085
        Tribes           336,320      116,840      113,233         85,601 651,995
        Total         $2,467,865 $2,135,768 $4,186,912 $3,910,326 $12,700,871
       Source: OIG analysis of HMEP grant program expenditure reports




Exhibit D. Analysis of Unused HMEP Program Funds
                                                                                                   23


 EXHIBIT E. ANALYSIS OF IMPROPER PAYMENTS TO GRANTEES
 OMB categorizes improper payments in several ways, as illustrated by Table E-1.

              Table E-1. Improper Payment Information Act Reporting
            Category                                 Definition
               1      Improper payment for under or over payment made to eligible recipient
                      including:
               1a       -Inappropriate denial of payments or service
               1b       -Any payment that does not account for credit for applicable discounts
               1c       -Payments that are for the incorrect amount
               1d       -Duplicate Payments
                2     Ineligible recipient for an ineligible good or service; or payments for
                      goods or services not received
                3     Agency’s review is unable to discern whether a payment was proper as a
                      result of insufficient or lack of documentation
           Source: OMB Circular A-123

 We reviewed a total of $1,015,974 that 17 grantees returned to PHMSA from
 FY 2008 to FY 2010. The returns consisted of 29 payments ranging from $53 to
 $473,000, of which 27 payments in the amount of $1,000,903 were considered
 improper based on criteria in OMB Circular A-123. Table E-2 identifies the 27
 improper payments and the applicable OMB category for improper payment type.

                       Table E-2. Improper Payments to Grantees
                                                                                               Total
Grantee                                     Improper Payment Type
                                                                                              Payment

                         Incorrect   Duplicate    Ineligible    Goods or       Insufficient
                          Amount     Payments      Good or     Services Not   Documentation
                                                   Service      Received
Budgeted in FY 2007 and Expended in FY 2008
Arkansas                                                            X                            $4,497
Illinois                                              X                                           $192
Iowa                                                                X                           $13,347
Iowa                        X                                       X                           $33,774
Kansas                                                              X                           $51,860
Kansas                                                              X                            $5,438
Kansas                                                              X                          $158,026
Massachusetts                                                       X                           $62,891
Massachusetts                                                       X                            $3,541
Pyramid Lake                X                                                                    $4,026
Paiute Tribe




 Exhibit E. Analysis of Improper Payments to Grantees
                                                                       24


                                                                   Total
Grantee                                   Improper Payment Type
                                                                  Payment
Saint Regis Mohawk                                            X       $388
Tribe
Total FY 2007                                                      $337,980
Budgeted in FY 2008 and Expended in FY 2009
Arkansas                                                      X     $40,726
Arkansas                                                      X       $222
Arkansas                                                      X       $513
Arkansas                                                      X       $186
Illinois                 X            X            X                 $1,584
Indiana                                                       X    $472,994
Iowa                                                          X      $9,935
Kansas                                                        X     $32,407
Kansas                                                        X     $31,832
Nebraska                                           X                  $172
Nevada                   X                                             $53
Texas                                                         X     $35,656
Virginia                                                      X     $34,371
Wisconsin                                          X                  $302
Total FY 2008                                                      $660,953
Budgeted in FY 2009 and Expended in FY 2010
Vermont                  X                                           $1,311
Washington                            X                               $659
Total FY 2009                                                        $1,970
 Source: OIG analysis of HMEP grant program data




 Exhibit E. Analysis of Improper Payments to Grantees
                                                                                            25


EXHIBIT F. ANALYSIS OF ADVANCED FUNDS TO GRANTEES
PHMSA’s grant program is designed to operate on a reimbursable basis; however,
PHMSA’s regulations allow for advances of program funds to grantees if the
following criteria are met:

   •    a letter describing the extenuating circumstances;
   •    maximum $25,000 limit;
   •    obligation within 3 months of receipt;
   •    advances plus interest will be deducted from the initial reimbursement; and
   •    no further advances will be granted until the advance is covered by a
        request for reimbursement.

We found that PHMSA made advances in excess of the $25,000 limit or did not
require the grantees to submit documentation specifying the extenuating
circumstances that warranted the advanced funding. Table F shows the
19 advanced payments in FYs 2008 and 2009 we identified that did not comply
with 49 CFR 110.70. Based on the information available, at least 10 of these were
in excess of the $25,000 limit. PHMSA advanced $992,604 to grantees who
subsequently did not use any of the funds.

       Table F. Advanced HMEP Program Funds Returned to PHMSA
                          *                                            **
                  FY 2008                                      FY 2009
             Grantee            Payment                 Grantee              Payment
   Arkansas                         $4,497      Arkansas                         $40,726
   Iowa                             $9,935      Arkansas                            $222
   Iowa                            $33,774      Arkansas                            $513
   Kansas                          $51,860      Arkansas                            $186
   Kansas                           $5,438      Indiana                         $472,994
   Kansas                         $158,026      Iowa                             $13,347
   Massachusetts                   $62,891      Kansas                           $32,407
   Massachusetts                    $3,541      Kansas                           $31,832
   Saint Regis Mohawk Tribe           $388      Texas                            $35,656
                                                Virginia                         $34,371
       Subtotal                   $330,350        Subtotal                      $662,254
    Total FY 2008–2009: $992,604 in HMEP program funds that could have been put to
    better use.
  *
     Funds budgeted in FY 2007, distributed in FY 2008.
  **
     Funds budgeted in FY 2008, distributed in FY 2009.
  Source: OIG, based on analysis of CFR 110.70 criteria and HMEP funds returned to PHMSA.




Exhibit F. Analysis of Advanced Funds to Grantees
                                                            26


EXHIBIT G. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                     Title
Scott Macey                              Program Director
Terri Ahuruonye                          Project Manager
Robert Falter                            Project Manager
Adrienne Williams                        Project Manager
Mackensie Ryan                           Team Leader
Lisa Mackall                             Auditor
Rita Fox                                 Auditor
Susan Crook                              Analyst
Petra Swartzlander                       Statistician
Audre Azuolas                            Writer-Editor




Exhibit G. Major Contributors to This Report
                                                                                           27


APPENDIX. AGENCY COMMENTS




   U.S. Department of Transportation                               1200 New Jersey Avenue, SE
   Pipeline and Hazardous Material                                 Washington, DC 0590
   Safety Administration

  December 20, 2011

   INFORMATION MEMORANDUM TO THE ASSISTANT INSPECTOR
   GENERAL FOR AVIATION AND SPECIAL PROGRAM AUDITS

   From:              Magdy El-Sibaie, Ph. D.
                      Associate Administrator for Hazardous Materials Safety
                      x6-4365

   Prepared by:       Vasco Espinoza
                      Director, Outreach, Training, Grants, and Registration Division
                      x6-3505

  Subject:            INFORMATION: Comments on OIG Draft Report Regarding PHMSA’s
                      Hazardous Materials Emergency Preparedness Grant Program


Hazmat Grants Program Provides Vital Services Efficiently

Though small in size and limited in resources, PHMSA’s Hazardous Materials Emergency
Preparedness (HMEP) Grants Program (the Program) has funded training for approximately 2.9
million emergency responders throughout the United States and its territories between 1993 and
2009. Thanks to the Program, state, territorial, Native American tribes, local, and hazardous
materials (hazmat) employee organizations have improved their ability to safely and effectively
handle hazmat transportation incidents through comprehensive localized planning and training.
While the OIG report criticizes the Program’s process and procedure, it does not adequately
recognize the Program’s accomplishments, or the many steps we have taken to improve its
operations. This information is necessary to place the issues identified in the report in proper
context.

The Program is one-tenth the size of similar Federal grant programs and did not use the typical
teams of technical experts, grants management professionals, auditors, and accountants to
administer grants, yet PHMSA’s highly efficient team of three employees sustained the program
from 1993 to 2010 and provided expertise for managing the program and all of its associated
grants. Their responsibilities were extensive, including announcing grants, reviewing
applications, making awards, processing more than 300 payments annually, monitoring grants,


Appendix. Agency Comments
                                                                                          28


providing technical assistance, collecting and reviewing reports, and managing grant close out.
Because the team was small and seasoned, the need for extensive standard operating procedures
(SOPs) was viewed as less significant than would be required for a larger team. When the size
of the grant program was doubled, PHMSA recognized the need to make improvements to its
oversight of the grant program and began a series of initiatives to do so. Those initiatives began
in 2009 with an internal audit of the Program, which led to the development and implementation
of an action plan to address issues involving internal controls, evaluation of grantee performance,
and the application processes. As a result of that internal audit, PHMSA began using the
GrantSolutions system. GrantSolutions is an Office of Management and Budget (OMB), Center
of Excellence system that institutes OMB Circular A-123 internal control requirements. In
August 2010, PHMSA hired an independent auditor to do a more thorough review of the
program, which led to the development and implementation of a follow on action plan that
PHMSA has already begun to implement by enhancing program outreach, improving guidance
documents, enhancing the application process, and increasing oversight of grantee performance.
While PHMSA recognizes the need for improving this program and is on course to doing so, the
unyielding critical tone of this report does not adequately acknowledge the accomplishments
made to date.

We are particularly concerned with a passage in the draft that suggests the implementation of the
grants program may have been implicated in some tragedy. It is not possible to quantify lives
saved and injuries avoided because of the invaluable training provided by this Program. Further,
the National Transportation Safety Board’s final report did not cite the program as a direct or
indirect factor in causing that event. q Therefore, we ask that the OIG remove the report’s
discussion on the first page about the fatalities and injuries that occurred in Macdona, Texas, and
the HMEP training available to that locality’s first responders.

PHMSA Implemented Considerable HMEP Grant Enhancements

PHMSA has demonstrated its commitment to improving the Program’s effectiveness and
processes. In March 2011, we launched a comprehensive action plan to enhance several key
areas of policy, operations, and support. The action plan increases accountability for program
operations, strengthens oversight of grantees, and creates operational efficiencies through:

                 •   Developing and implementing SOPs,
                 •   Adding staff and support resources,
                 •   Leveraging on-line information technology management systems, and
                 •   Standardizing grantee applications, reports, review processes, and
                     oversight.

To date, PHMSA has implemented 75 percent of the action plan, thereby improving operations
in many ways not addressed in the OIG audit. Complete implementation of the action plan is
expected by June 29, 2012. The plan is being regularly reviewed to update completed tasks and
ensure that it remains responsive to program needs.

q
 “Collision of Union Pacific Railroad Train MHOTU-23 with BNSF Railway Company Train MEAP-TUL-126-D
with Subsequent Derailment and Hazardous Materials Release Macdona,” Texas, July 6, 2006.

Appendix. Agency Comments
                                                                                      29




Through the ongoing action plan, PHMSA has:

   •   Developed SOPs – In March 2011, PHMSA issued revised SOPs to address the grant life
       cycle including grant administration and oversight based on current processes and IT
       systems.

   •   Updated Terms and Conditions – On September 30, 2010, PHMSA issued updated
       Terms and Conditions for grantees in the 2011-2012 grant cycle. The new Terms and
       Conditions increase grantee fund accountability and enable PHMSA to take action in
       cases of non-compliance. Grants management training was developed regarding the
       updated Terms and Conditions and was presented during a grantee conference in October
       2011. PHMSA will continue to review the Terms and Conditions issued each year to
       ensure that they reflect current program policies and maximize grantee accountability.

   •   Leveraged Technology – PHMSA is leveraging technology to improve grant
       management and educate grantees by implementing the GrantSolutions software
       program. This program provides PHMSA with more internal controls in compliance with
       the Office of Management and Budget (OMB) Circular A-123 and automates application
       processing and awards. PHMSA also deployed the Grant Portal, which is a web-based
       tool that allows grantees the ability to submit payment requests and post-award activity
       changes via a centralized approval system. These systems enhance transparency and
       ensure expeditious processing.

   •   Increased Staff – In 2010, PHMSA increased program staff to seven FTEs including an
       acting chief, five grant specialists, and an administrative support employee. The staff
       increase enabled PHMSA to improve grant administration, monitoring and oversight, and
       customer service. In July 2011, PHMSA hired a permanent Director for the Outreach,
       Training, Grants, and Registration Division.

   •   Developed and Implemented an Outreach Plan – PHMSA is implementing a multi-
       faceted Outreach Plan that includes conducting webinars and attending stakeholder
       events to provide grantees with real-time information sharing and training. PHMSA
       performed six site visits, hosted four webinars, and four desk reviews. PHMSA
       continues to participate in the National Association of SARA Title III Program Officials
       (NASTTPO) Annual Conference and has begun to further leverage this opportunity to
       work with grantees. During the October 19-20, 2011, NASTTPO mid-year conference,
       PHMSA facilitated four presentations discussing PHMSA priorities, 2011-2012 HMEP
       Application Trends, HMEP Administrative Requirements, and HMEP Grant
       Management/Terms & Conditions. PHMSA also presented at various events including
       the October Hotzone conference attended by emergency responders, and several regional
       hazmat responder conferences including the Midwest Hazardous Materials Response


Appendix. Agency Comments
                                                                                       30


       Conference and the International Association of Fire Chiefs Hazardous Materials
       Conference.

       Improved Development and Monitoring of Interagency Agreements – Since 2009, IAAs
       are negotiated and awarded by a Contracting Officer in PHMSA’s Office of Acquisition
       Services. The Contracting Officer is responsible for preparing, reviewing, approving,
       signing, and administering the agreement. Statements of Work (SOW) are developed jointly
       to ensure deliverables meet mission goals and are attainable. SOWs contain descriptions of
       specific projects and tasks to be completed that support PHMSA’s mission and identify clear
       and measurable deliverables, due dates, and costs associated with each element to ensure
       accountability. PHMSA also requires that individuals be appointed for each project/task
       responsible for monitoring the agreement. Program Office points of contact are required to
       attend the annual Procurement Ethics training.

   •   Improved Monitoring and Request Processing – PHMSA is focused on ensuring that
       approved grant activities are aligned and consistent with its program mission to ensure
       the safe transportation of hazmat. Since March 2011, applications and post-award change
       requests are reviewed and approved using a committee approach, including program
       leadership and counsel. This affords the team needed support of senior personnel and
       ensures consistency in administration practices.

RECOMMENDATIONS AND RESPONSE

Recommendation 1: Complete the implementation of all HMEP action plan items to improve
the management and oversight of the HMEP Grant Program.

Response: Concur. In March 2011, PHMSA launched a comprehensive action plan to improve
and enhance key areas of policy, operations, and support, where identified. To date, PHMSA has
implemented 75 percent of the action plan and expects full completion by June 2012. Actions
taken to date are summarized above.

Recommendation 2: Finalize and fully implement formal SOPs and policies for grant processes
for grant application, evaluation, authorization, reporting, agency coordination, and oversight.

Response: Concur. In March 2011, PHMSA issued revised SOPs to address the grant life
cycle including grant administration and oversight based on current processes and IT systems.
PHMSA will continually update SOPs to reflect new program processes and IT solutions
supporting the administration of the program. By March 2012, PHMSA intends to expand its
SOPs to address the preparation, processing, and review of quarterly reports and closeout reports.

Recommendation 3: Provide the necessary training to Program staff to enhance their Federal
grant management capabilities.

Response: Concur. To date, three of the five Grant Specialists have already obtained
certificates of completion for grants management from Management Concepts and the USDA
Graduate School. By June 2012, all Program staff will have obtained certificates of completion.


Appendix. Agency Comments
                                                                                         31



By June 2012, a Training Needs Assessment will be completed to ensure that training is
sufficient for staff responsibilities. This Needs Assessment will use job series and position
descriptions to identify core competencies that will then be mapped against staff capability to
identify, document, and address further training needs.

Recommendation 4: Develop and implement an updated and flexible process to allocate and
reallocate grant funds, taking into account applicable risk factors, commodity flow studies, and
grantee needs.

Response: Concur in Part. By March 2012, PHMSA will evaluate potential hazmat
transportation risk indicators, including the use of commodity flow studies, for incorporation into
an updated grant funds allocation model to ensure:

    •   Relevance within various states, territories, and tribes, including the potential use of
        commodity flow data,
    •   Allocation, on a proportionate basis, to those grantees with potential hazmat
        transportation risks, and
    •   Inactive or low-performing grantees do not receive funds that must later be reduced or
        cancelled; and optimal funds are available to high-performing grantees in need of grant
        funding.

Reallocation of unused program funds during the grant year is not practical. The Program is a
one-year reimbursable grant program operating on a standard 12-month cycle. A grant period
begins October 1 and ends on September 30 of the following year, providing there are timely
appropriations. Grantees are then afforded a 90-day grace period, through December 31, to
submit invoices and satisfy all PHMSA reporting requirements. The purpose of this structure is
to provide grantees flexibility in program administration. Any deobligated funds are reallocated
to grantees during the next grant cycle, which augments shortfalls in registration fee collections.

Recommendation 5: Augment outreach and coordination efforts to inform grantees about
available emergency preparedness planning and training grants, website, webinars, and site
visits.

Response: Concur. PHMSA is implementing an Outreach Plan that defines a multi-faceted
approach to increasing outreach efforts, including leveraging PHMSA’s website, conducting
webinars and stakeholder events to provide grantees with real-time information sharing and
training. The Outreach Plan also calls for the development and distribution of educational
materials to improve grantee performance.

PHMSA will regularly update the Program website to include information on funding priorities,
announcements, applicant status, and critical program dates, as applicable. The Program’s
Frequently Asked Questions will be reviewed and updated, as needed, quarterly, to reflect
program changes.




Appendix. Agency Comments
                                                                                      32




PHMSA also recognizes tribes as important stakeholders, and by March 30, 2012, will develop
additional elements of the Outreach Plan specifically addressing this unique group of
participants. Notwithstanding, tribal demographic trends indicate that as many as 200 of the 500
federally recognized tribes do not reside on reservations and have no independent thoroughfares
on which hazmat would be transported. Further, statistics including population and square
miles–current hazmat risk indicators–suggest many tribes with reservations may not have
significant hazmat risks on, or adjacent to, their reservation. Consequently, there may not be a
need for independent HMEP Grants. Many tribes may be better suited as recipients of HMEP
sub-grants, as response needs can be met through the states in which they are located.

Recommendation 6: Adhere to the grant advancement requirements in 49 CFR § 110.70.

Response: Concur. By February 2012, the program will revise and implement processes to
support HMEP advancement requirements.

Recommendation 7: Rescind the provision in PHMSA's Order No. 4200.1 "Interagency and
IntraAgency Agreements; Acquisition from Other Government Agencies, or Other DOT
Operating Administrations" that requires advanced payment for all interagency agreements.

Response: Non-concur: On October 24, 2006, the Department of Transportation (DOT)
implemented Title 31 USC Section 1535 in Section 9 of the DOT Financial Management
Policies Manual, at Para 9.5.2 f. The Administration’s policy states:

       “f. Advance Payments. An advance payment is mandatory for all agreements
       unless the enabling legislation does not authorize it. The Economy Act and many
       other revolving funds authorize advance payments. The initial advance payment
       should be collected when the agreement is first signed, and it is to be collected
       quarterly, thereafter. Advance payments provided for any transaction must be
       properly expended and returned to the Buyer by the end of the period of
       availability of the funds unless statutory authority provides otherwise.”

On October 29, 2007, PHMSA implemented PHMSA Order 4200.1 to align with the DOT
Financial Management Policies Manual.

Recommendation 8: For the FY 2007 interagency agreements, request a reconciliation of
amounts paid by PHMSA and actual goods and services provided by FEMA. Seek a refund as
appropriate.

Response: Concur. In February 2009, PHMSA initiated an internal review of the 2006 and
2007 Interagency Agreements (IAA) with the U.S. Department of Homeland Security’s Federal
Emergency Management Agency’s (FEMA) National Fire Academy to address concerns
regarding a lack of deliverables received. In an April 10, 2009, Memorandum for the Record
(memo) based on the internal review, PHMSA’s hazmat leadership team concluded that FEMA
fully delivered on objectives and deliverables outlined in the 2007 IAA. Although the 2009


Appendix. Agency Comments
                                                                                      33


memo states that FEMA fully delivered, physical documentation specifically identified in the
memo remains ongoing due to the parties directly involved in the 2007 IAA having either retired
or taken other positions. By February 2012, PHMSA agrees to re-visit the 2007 IAA and 2009
memo to assure the actual goods and services were provided to PHMSA’s satisfaction. PHMSA
will request from FEMA a reconciliation of amounts, and any refunds as necessary, based on the
outcome of this further review.

Recommendation 9: Develop and implement a process to monitor interagency agreements to
ensure the receipt of all supplies and services as agreed upon.

Response: Concur. This action is complete. PHMSA agreements are negotiated and awarded
by a Contracting Officer in PHMSA’s Office of Acquisition Services. The Contracting Officer
is responsible for preparing, reviewing, approving, signing, and administering the agreement.

In October 26, 2009, PHMSA issued Procurement Flash 004-2010, titled, “Program Office Point
of Contact - Letter of Appointment” requiring that an individual be appointed for each PHMSA
IAA, and details the specific responsibilities of that individual in monitoring IAAs. Program
Office points of contact attend the annual Procurement Ethics training.

SOWs are developed jointly to ensure deliverables meet mission goals and are attainable, and
contain descriptions of specific projects and tasks to be completed supporting PHMSA’s mission.
SOWs contain clear and measurable deliverables, due dates, and costs associated with each element
to ensure accountability.

In July 2011, a permanent Director of the Outreach, Training, Grants, and Registration Division
was hired. The Director will ensure that a qualified Program Office point of contact oversees
any future Program IAAs.

Recommendation 10: Develop and implement a process to regularly review grantee
expenditures before approving reimbursement requests, and distribute the most current eligible
and ineligible lists to grantees.

Response: Concur: Since March 2011, applications and post-award change requests are
reviewed and approved using a committee approach, including program leadership and counsel.
This affords the team needed support of senior personnel and ensures consistency in
administration practices.

In January 2011, PHMSA deployed the Grant Portal–a web-based tool allowing grantees the
ability to submit payment requests and post-award activity changes via a centralized approval
system. This system enhances transparency and allows for expeditious request processing.

On December 16, 2010, a list of allowable and unallowable (eligible and ineligible) grant
expenses was provided to grantees’ primary point of contact via e-mail. PHMSA is working to
enhance and update this list based on information learned during grant cycle 2010-2011




Appendix. Agency Comments
                                                                                        34


 monitoring. By December 2011, an updated list will be made available to grantees by e-mail
and posted to PHMSA’s website.

CONCLUSION

While PHMSA continues to make significant progress in reforming the HMEP Grant Program, it
will take several grant cycles to see the effects of these improvements. Progress will continue on
these and other efforts to improve the efficacy of PHMSA’s Program including implementation
of grantee training program evaluations, and the development of additional guidance on effective
uses of planning funds.

    If you have any questions, please contact Kyra Stewart, Acting Chief, Grants and
    Registration at Kyra.Stewart@dot.gov or (202) 366-8752.




Appendix. Agency Comments
